      Department of Homeland Security




  Independent Review of the U.S. Immigration and
 Customs Enforcement’s Reporting of FY 2011 Drug
                 Control Obligations




OIG-12-33                                   January 2012

                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                               JAN 30 2012 

                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report presents the results of the review of the Table of Prior Year Drug Control
Obligations of the U.S. Immigration and Customs Enforcement (ICE) for the year ended
September 30, 2011, for the Office of National Drug Control Policy (ONDCP). We
contracted with the independent public accounting firm KPMG LLP to perform the
review. ICE prepared the Table of Prior Year Drug Control Obligations to comply with
requirements of the ONDCP Circular, Drug Control Accounting, dated May 1, 2007.
Based on the review, nothing came to KPMG’s attention that caused them to believe that
the Table of Prior Year Drug Control Obligations and related disclosures for the year
ended September 30, 2011, are not presented, in all material respects, in conformity with
ONDCP’s Circular, or that management’s assertions are not fairly stated, in all material
respects, based on the criteria set forth in ONDCP’s Circular. KPMG LLP is responsible
for the attached independent accountants’ report dated January 20, 2012, and the
conclusions expressed in it. We do not express an opinion on the Table of Prior Year
Drug Control Obligations and related disclosures.

We trust this report will result in more effective, efficient, and economical operations.
We express our appreciation to all of those who contributed to the preparation of this
report.



                                              Anne L. Richards
                                              Assistant Inspector General for Audits
                                  KPMG LLP
                                  Suite 12000
                                  1801 K Street, NW
                                  Washington, DC 20006




                                       Independent Accountants’ Report


Acting Inspector General
U.S. Department of Homeland Security:

We have reviewed the accompanying Table of Prior Year Drug Control Obligations and related disclosures
of the U.S. Department of Homeland Security’s (DHS) Immigration and Customs Enforcement (ICE) for
the year ended September 30, 2011. We have also reviewed the accompanying management’s assertions
for the year ended September 30, 2011. ICE’s management is responsible for the Table of Prior Year Drug
Control Obligations, related disclosures, and the assertions.

Our review was conducted in accordance with attestation standards established by the American Institute
of Certified Public Accountants, and applicable standards contained in Government Auditing Standards,
issued by the Comptroller General of the United States. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the Table of Prior Year Drug
Control Obligations, related disclosures, and management’s assertions. Accordingly, we do not express
such an opinion.

Management of ICE prepared the Table of Prior Year Drug Control Obligations, related disclosures, and
management’s assertions to comply with the requirements of the Office of National Drug Control Policy
(ONDCP) Circular, Drug Control Accounting, dated May 1, 2007 (the Circular).

Based on our review, nothing came to our attention that caused us to believe that (1) the Table of Prior
Year Drug Control Obligations and related disclosures for the year ended September 30, 2011 are not
presented, in all material respects, in conformity with the Circular, or that (2) management’s assertions
referred to above are not fairly stated, in all material respects, based on the criteria set forth in the Circular.

This report is intended solely for the information and use of the management of DHS and ICE, the DHS
Inspector General, the ONDCP, and the U.S. Congress, and is not intended to be and should not be used by
anyone other than these specified parties.




January 20, 2012




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
                                                                       Office of Chief Financial Officer

                                                                       u.s. Dfpar1mf ot or Jl omfl.od Sec uri ty
                                                                       500 12111 Street, SW
                                                                       Washington, D.C. 20536


                                                                       u.s. Immigration
                                                                       and Customs
                                                                       Enforcement
January 19th , 2012

Mr. John Shiffer
Department of Homeland Security
Director of Financial Management
Office of the Inspector general




Dear Mr. Shiffer,

In Accordance with the Office of National Drug Control Policy circular, Drug Control Accounting, dated
May 1,2007, enclosed is Immigration and Customs Enforcement's report ofFY 2011 drug control
obligations, drug control, methodology and assertions.

If you require further assistance on this infonnation, please contact Joseph Grosodonia at (202)-732-6244.

                                                 Sincerely,




                                                 Lisa Macecevic
                                                 Director, Office of Budget and Program Perfonnance
                                                 U.S . Immigration and Customs Enforcement




                                                                       www-ice.gov
                                                       -1­


                           U.S. Department of Homeland Security
                         U.S. Immigration and Customs Enforcement
            Detailed Accounting Submission of Drug Control Funds during FY 2011


A.	 Table of Prior Year Drug Control Obligations
   Drug Resources by Budget Decision Unit and Function:

                                                                              FY 2011 Final
                                                                               (In Millions)
                  Salaries and Expense
                         Domestic Investigations                                      $483.65
                         International                                                  $7.11
                         Intelligence: Domestic                                        $13.21
                         Intelligence: International                                    $0.56
                  Total Salaries and Expense                                         $504.53


           Total Funding                                                             $504.53


           High Intensity Drug Trafficking Area (HIDTA) Transfer                        $1.28

   Disclosure No. 1: Drug Methodology

   U.S. Immigration and Customs Enforcement (ICE) is a multi-mission bureau, and obligations are
   reported pursuant to an approved drug methodology. Separate calculations are made for the
   three ICE programs which undertake drug-related investigative activity: Domestic Investigations,
   International Affairs, and Intelligence.


   Domestic Investigations

   •	 The methodology for Domestic Investigations is based on investigative case hours recorded
      in ICE’s automated Case Management System. ICE officers record the type of work they
      perform in this system, which interfaces with the Treasury Enforcement Communications
      System (TECS). Following the close of the fiscal year, a report in the TECS is run showing
      investigative case hours that are coded as general narcotics cases and money laundering
      narcotics cases. A second report is run showing all investigative case hours logged. A
      percentage is derived by dividing the number of investigative case hours linked to drug
      control activities by the total number of investigative case hours. This percentage may
      fluctuate from year to year. For FY 2011, the actual percentage for Domestic Investigations
      was 28.94%. To calculate a dollar amount of obligations, this percentage was applied to
      actual obligations incurred by Domestic Investigations, excluding reimbursable authority.
      The Federal Financial Management System (FFMS) is the system used to generate the actual
      obligations incurred.
                                                -2­


International Affairs

•	 The methodology for International Affairs is based on investigative case hours recorded in
   ICE’s automated Case Management System. ICE officers record the type of work they
   perform in this system, which interfaces with the TECS. Following the close of the fiscal
   year, a report in the TECS is run showing investigative case hours that are coded as general
   narcotics cases and money laundering narcotics cases. A second report is run showing all
   investigative case hours logged. A percentage is derived by dividing the number of
   investigative case hours linked to drug control activities by the total number of investigative
   case hours. For International Affairs, the actual percentage of hours that were counter-
   narcotics related was 6.33% in FY 2011. To calculate a dollar amount of obligations, this
   percentage was applied to actual obligations incurred by International Affairs, excluding
   reimbursable authority. The FFMS is the system used to generate the actual obligations
   incurred.

Intelligence

•	 The methodology for Intelligence is based on investigative case hours recorded in ICE’s
   automated Case Management System. ICE officers record the type of work they perform in
   this system, which interfaces with the TECS. Following the close of the fiscal year, a report
   in the TECS is run showing investigative case hours that are coded as general narcotics cases
   and money laundering narcotics cases. A second report is run showing all investigative case
   hours logged. A percentage is derived by dividing the number of investigative case hours
   linked to drug control activities by the total number of investigative case hours. For
   FY 2011, 24.30% of the total case hours for Intelligence were in support of drug control
   activities. To calculate a dollar amount of obligations, this percentage was applied to actual
   obligations incurred by Intelligence, excluding reimbursable authority. The FFMS is the
   system used to generate the actual obligations incurred.

•	 Intelligence Information Management System (IIMS) tracks requests for intelligence work by
   customer. Requests made by International Affairs are classified as inherently international
   and all other customers are classified as inherently domestic. In FY 2011, 4.08% of IIMS
   requests were international in nature.

Disclosure No. 2: Methodology Modifications

The methodology described above is consistent with the previous year.

Disclosure No. 3: Material Weaknesses or Other Findings

In the FY 2011 Internal Controls Assurance Statement ICE continues to report a material
weakness for the Budgetary Resource Management process. Plans to remediate the weakness
have not yet been fully implemented and validation and verification activities have not been
completed. Two major accomplishments in FY 2011 were the publication of the Administrative
Control of Funds Directive and initial implementation of the Budget Execution Handbook. The
Directive includes roles and responsibilities for the administrative control of funds and requires
ICE program offices to use funds in accordance with the requirements of the Anti-Deficiency
                                                     -3­

   Act. The Budget Execution Handbook serves as a supplement to the Directive and reflects
   detailed procedural guidance and key internal controls, such as spend plan requirements and
   execution reviews. The Office of the Chief Financial Officer (OCFO) now monitors burn rates
   on existing contracts through the Business Management Dashboard, and in doing so, are able to
   be more efficient in the use of ICE budgetary resources. As a result of these actions, ICE has
   improved guidance and standardized policies and procedures for funds control and budgetary
   resource management. These changes will allow for improved oversight at the program
   execution level and decrease the likelihood of ICE funds being inappropriately used.

   During FY 2012, ICE expects to complete its corrective action plan and to fully remediate the
   budget execution material weakness conditions. Specifically, ICE OCFO will 1) publish an
   emergency expenses policy which will clarify those expenses critical to the Agency’s mission
   when emergency situations arise; 2) document the sources and uses of funds to assist Program
   Offices in their responsibilities for the proper use of funds; 3) clarify or assign responsibilities
   for ensuring all Congressional appropriation mandates and metrics are met; and 4) implement
   measures to ensure documentation to support financial activities is readily available for
   examination.

   Additionally, a material weakness related to Financial Systems Security was reported in the FY
   2011 Internal Controls Assurance Statement. This material weakness is due to the aggregate of
   the significant deficiencies existing in FFMS and its subsidiary systems. ICE continues efforts to
   implement corrective actions to address this weakness.

   Disclosure No. 4: Reprogrammings or Transfers

   No Reprogrammings or Transfers of drug-related budget resources occurred during FY 2011.

   Disclosure No. 5: Other Disclosures
   There are no other disclosures, which we feel are necessary to clarify any issues regarding the
   data reported.

B. Assertions

   Assertion No. 1: Obligations by Budget Decision Unit

   Not Applicable - As a multi-mission agency, ICE is exempt from reporting under this section as
   noted in the Office of National Drug Control Policy (ONDCP) Drug Control Accounting, Section
   6 (b) (1).

   Assertion No. 2: Drug Methodology

   The methodology used to calculate obligations of prior year budgetary resources by budget
   decision unit and function is reasonable and accurate in regard to the workload data employed
   and the estimation methods used. The workload data is derived from the TECS and IIMS
   systems discussed in the methodology section above and are based on work performed between
   October 1, 2010 and September 30, 2011. There are no other estimation methods used. The
                                                 -4­

financial system used to calculate the drug-related budget obligations is the FFMS which is
capable of yielding data that fairly presents, in all material respects, aggregate obligations.

Assertion No. 3: Application of Drug Methodology

The methodology disclosed in section A, Disclosure No. 1 was the actual methodology used to
generate the Table of Prior Year Drug Control Obligations.

Assertion No. 4: Reprogrammings or Transfers

No reprogrammings or transfers of drug-related budget resources occurred during FY 2011. The
data presented are associated with obligations against a financial plan that was sent to ONDCP in
FY 2011.

Assertion No. 5: Fund Control Notices

No Fund Control Notice was issued by the ONDCP Director under 21 U.S.C. section 1703(f) and
Section 8 of the ONDCP Circular, Budget Execution, to ICE in FY 2011.
Report Distribution




                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Financial Officer
                      Chief Information Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Office of National Drug and Control Policy

                      Associate Director for Planning and Budget

                      Immigration and Customs Enforcement

                      Assistant Secretary
                      Chief Financial Officer
                      Chief Information Officer

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
